APPENDIX A

United States v. Aguilar,
973 F.3d 445 (5th Cir. 2020)

United States v. Aguilar, 973 F.3d 445 (2020)

the correctness of district court's ruling on the
motion to suppress, and towards end of stipulated
bench trial, district court assured defendant that
he was going to be able to appeal to another court
to see if there were any mistakes that were made,
as far as suppressing the evidence.

973 F.3d 445
United States Court of Appeals, Fifth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Alfredo AGUILAR, Jr., Defendant-Appellant.
No. 19-40554
|
FILED September 2, 2020

[2]

[3]

Criminal Law
obtained

Evidence wrongfully

Criminal Law

Reception of evidence

Because the government prevailed below,
appellate court would view the evidence in
light most favorable to the government when
reviewing trial court's denial of defendant's
suppression motion.

[1] although defendant agreed to stipulated bench trial,
defendant reserved the right to appeal district court's denial of
his motion to suppress, and
[2] agents had good faith, reasonable belief that they could
search defendant's phone without obtaining a warrant, and
thus, good faith exception to the exclusionary rule applied to
forensic search of defendant's phone.

Review De Novo

When reviewing denial of a motion to
suppress evidence, appellate courts review
factual findings for clear error and the ultimate
constitutionality of law enforcement action de
novo.

Synopsis
Background: After stipulated bench trial, defendant was
convicted in the United States District Court for the Southern
District of Texas, Hilda G. Tagle, J., of narcotics conspiracy,
possession, and importation, and he appealed.

Holdings: The Court of Appeals, Jolly, Circuit Judge, held
that:

Criminal Law

[4]

Searches and Seizures
Fourth
Amendment and reasonableness in general
Fourth Amendment prohibits unreasonable
searches and seizures. U.S. Const. Amend. 4.

Affirmed.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.

[5]

Criminal Law

Waiver or Loss of Right

Although defendant agreed to stipulated bench
trial, defendant reserved the right to appeal
district court's denial of his motion to suppress;
defendant explained to district court that
he had agreed to the stipulated bench trial
with the understanding that he had preserved
the suppression issue for appeal, defendant's
agreement to the stipulated facts was subject to

Searches, seizures, and

When government officials conduct search in
violation of the Fourth Amendment, prosecutors
are barred from introducing evidence obtained in
the unlawful search at trial. U.S. Const. Amend.
4.

West Headnotes (13)
[1]

Criminal Law
arrests

[6]

Criminal Law
Good Faith or Objectively
Reasonable Conduct Doctrine
Under good faith exception to the exclusionary
rule, evidence is not to be suppressed where it is
discovered by officers in course of actions that
are taken in good faith and in the reasonable,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Aguilar, 973 F.3d 445 (2020)

though mistaken, belief that they are authorized.
U.S. Const. Amend. 4.

[7]

Criminal Law
Good Faith or Objectively
Reasonable Conduct Doctrine

any particularized suspicion of wrongdoing. U.S.
Const. Amend. 4.

[12]

Good faith exception to the exclusionary
rule applies when government officials act
reasonably in light of the law existing at the time
of the search. U.S. Const. Amend. 4.

[8]

Criminal Law

Customs Duties

Searches and Seizures

Although the Fourth Amendment applies at
United States' border, its protections are severely
diminished. U.S. Const. Amend. 4.

[10]

Customs Duties
Grounds or cause for
stop, search, or seizure
At United States' border, government's interest
is at its zenith because of its need to
prevent the entry of contraband, and individual's
privacy expectations are lessened, for Fourth
Amendment purposes, by the tradition of
inspection procedures at the border. U.S. Const.
Amend. 4.

[11]

For Fourth Amendment purposes, individualized
suspicion may be required if United States'
border search is highly intrusive or impinges
on dignity and privacy interests. U.S. Const.
Amend. 4.

Arrests and stops

To determine whether the district court properly
applied the good faith exception to exclusionary
rule to deny defendant's motion to suppress,
appellate court would ask what was the law at
time of the search, and whether United States
Customs and Border Protection (CBP) agents'
forensic search of defendant's cell phone was
objectively reasonable in the light of the thenexisting law. U.S. Const. Amend. 4.

[9]

Customs Duties
Grounds or cause for
stop, search, or seizure

Customs Duties
Grounds or cause for
stop, search, or seizure
Border-search exception to warrant requirement
allows officers to conduct routine inspections
and searches of individuals or conveyances
seeking to cross United States' borders without

[13]

Criminal Law

Arrests and stops

Given the state of the law at time defendant's
cell phone was forensically searched by United
States Customs and Border Protection (CBP)
agents, agents had good faith, reasonable belief
that they could search defendant's phone without
obtaining a warrant, and thus, good faith
exception to the exclusionary rule applied to
forensic search of defendant's phone; at time of
search, no court had required warrant to conduct
forensic search of cellphone at United States'
border and CBP agents knew that defendant had
attempted to cross border with individuals, who
were carrying cans that physical inspection and
x-rays had revealed to be suspicious, K-9 unit
had alerted agents to presence of narcotics in
the cans, and defendant had implicated himself
as purchaser of the cans’ contents, and thus,
there was particularized and objective basis for
suspecting defendant of criminal activity, which
was all that was required to establish reasonable
suspicion, the highest level of suspicion that had
been required at the border at time of the search.
U.S. Const. Amend. 4.

*446 Appeal from the United States District Court for the
Southern District of Texas, USDC No. 5:18-CR-401-1, Hilda
G. Tagle, U.S. District Judge
Attorneys and Law Firms
Seth Christian Gagliardi, Assistant U.S. Attorney, Carmen
Castillo Mitchell, Assistant U.S. Attorney, U.S. Attorney's

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Aguilar, 973 F.3d 445 (2020)

Office, Southern District of Texas, Houston, TX, for PlaintiffAppellee.
Philip J. Lynch, San Antonio, TX, for Defendant-Appellant.
Before Jolly, Jones, and Willett, Circuit Judges.
Opinion
E. Grady Jolly, Circuit Judge:
Alfredo Aguilar, Jr. attempted to cross into the United States
from Mexico with two female associates both of whom
carried *447 large cans filled with methamphetamine.
After detaining Aguilar, United States Customs and Border
Protection (CBP) agents forensically searched his cell phone
without a warrant. Soon after, Aguilar was charged with
multiple counts of narcotics conspiracy, possession, and
importation. The district court denied Aguilar's motion to
suppress the evidence found during the forensic search of
his cell phone, and following a stipulated bench trial, found
Aguilar guilty on all counts in the indictment. Aguilar appeals
only the denial of the motion to suppress. Because the CBP
agents acted in good faith when searching Aguilar's phone,
we affirm.

I.
The Gateway to the Americas International Bridge connects
Nuevo Laredo, Mexico with Laredo, Texas. Because the
bridge is a port of entry to the United States, any person
crossing the bridge from Mexico to the United States must
pass CBP primary inspection and, if the reviewing CBP
officer thinks necessary, secondary inspection.
At 11:00 p.m. on May 15, 2018, Aguilar, accompanied
by Cristin Cano and Cristal Hernandez, attempted to enter
the United States on foot by crossing the Gateway to
the Americas International Bridge. Cano was carrying
two plastic-wrapped one-gallon cans that were labeled as
containing hominy beans. Hernandez carried similar cans that
were labeled as containing jalapeños. CBP Officer Saucedo
was the primary inspection agent who interviewed Cano and
Hernandez. Saucedo was suspicious of the heft and sound of
the cans, so he referred the women to the secondary inspection
area. The secondary inspection agent, CBP Officer Trevino,
first interviewed Cano alone and then Hernandez and Cano
together. Trevino was suspicious about the cans' contents
because most cans of jalapeños contain vinegar, but when he

shook these cans, it sounded like there was no liquid inside
the cans. Trevino's suspicion was further heightened because
the women said that the cans contained ingredients for the
Mexican soup menudo when he had never known anyone to
include jalapeños in menudo. Trevino thus decided to have a
K9 unit inspect the cans.
Meanwhile, Aguilar was being screened by CBP Officer
Serna at the primary inspection point. When Serna ran
Aguilar's Texas driver's license through a customary database
search, he received an alert that Aguilar previously had been
arrested for smuggling two undocumented aliens into the
United States. Serna then asked Aguilar if he was traveling
with anyone else, and Aguilar indicated that he was traveling
with the two women who had been inspected by Saucedo.
Serna then sent Aguilar to the secondary inspection area.
During the secondary inspection, Aguilar told CBP agents
that he and the two women had gone to Mexico to buy
ingredients for menudo and that he had been the one to pay
for the groceries.
When the K9 unit arrived, there was a K9 alert on the
cans carried by Cano and Hernandez. And an x-ray of
the cans revealed anomalies. Following the x-ray, the CBP
contacted Homeland Security Investigations Special Agent
Salinas to continue the investigation. When Salinas arrived,
he interviewed Cano and Hernandez, but Aguilar declined to
provide a statement. The next afternoon, Salinas took custody
of Aguilar's phone. Nine days later, another agent forensically
examined the phone's SIM card without a warrant. The
forensic data search of Aguilar's cell phone showed that he
had recently placed six outgoing calls to phone numbers in
Mexico.
Eventually, the law enforcement investigation revealed
that the cans carried by Cano and Hernandez contained
10.7 kilograms *448 of methamphetamine. Because of
his connection to Cano and Hernandez, Aguilar was
charged with conspiring to import more than 50 grams of
methamphetamine into the United States and with importing
more than 50 grams of methamphetamine in violation of
21 U.S.C. §§ 952(a),
960(a)(1),
960(b)(1)(H), 963.
He also was charged with conspiring to possess more than
50 grams of methamphetamine with the intent to distribute
and with possessing more than 50 grams of methamphetamine
with the intent to distribute in violation of

21 U.S.C. §§

841(a)(1),
841(b)(1)(A), 846. Following his indictment,
Aguilar moved to suppress the evidence obtained from the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Aguilar, 973 F.3d 445 (2020)

forensic examination of his cell phone. The district court held
an evidentiary hearing and denied Aguilar's motion, reasoning
“that the agents acted reasonably ... pursuant to a good-faith
belief that they could search [the] phone and its contents.”
Soon thereafter, Aguilar agreed to a stipulated bench trial, and
the district court found Aguilar guilty on all counts. Notably,
none of the evidence recovered from the forensic search of
Aguilar's phone was included in the facts stipulated to at
the bench trial. Aguilar appeals the denial of the motion to
suppress.

II.
A.
[1] As an initial matter, we address whether, because of
mootness, we lack jurisdiction to consider the district court's
denial of Aguilar's motion to suppress. At the stipulated
bench trial, the district court found Aguilar guilty, beyond
a reasonable doubt, of each count in the indictment without
considering the import of the six phone calls made to
Mexico. Because the district court found Aguilar guilty
without considering the evidence that he sought to suppress, it
appears, at first blush, that any challenge to the district court's
denial of Aguilar's motion to suppress would be moot. Indeed,
we have raised similar mootness concerns in the past. See
United States v. Garcia-Ruiz, 546 F.3d 716, 718–19 (5th Cir.
2008). Here, Aguilar explained to the district court that he had
agreed to the stipulated bench trial with the understanding that
he had preserved the suppression issue for appeal. See GarciaRuiz, 546 F.3d at 719 (citing
United States v. Mendoza,
491 F.2d 534 (5th Cir. 1974), which permitted appeal on the
merits of a suppression motion from a trial on stipulated facts
because defendants “sought to expressly reserve their right
to appeal from the order denying the motion to suppress”).
Stated differently, Aguilar's agreement to the stipulated facts
was subject to the correctness of the district court's ruling
on the motion to suppress. Further, towards the end of the
stipulated bench trial, the district court assured Aguilar that
he was “going to be able to appeal ... to another Court to
see if there were any mistakes that were made, as far as the
suppressing the evidence.” Based on these statements, we are
convinced that Aguilar reserved the right to appeal the district
court's denial of his motion to suppress. Consequently, we are
satisfied that we have jurisdiction to consider the merits of
this appeal.

B.
[2] [3] Having determined that the district court's denial of
Aguilar's motion to suppress is properly before us, we turn to
the merits of the motion to suppress ruling. “When reviewing
a denial of a motion to suppress evidence, we review factual
findings for clear error and the ultimate constitutionality
of law enforcement action de novo.”
United States v.
Scroggins, 599 F.3d 433, 440 (5th Cir. 2010). Because the
government prevailed below, we view the *449 evidence in
the light most favorable to it. See

id.

Aguilar argues that the Supreme Court's decision in
Riley
v. California, 573 U.S. 373, 393–97, 134 S.Ct. 2473, 189
L.Ed.2d 430 (2014), which recognized a heightened privacy
interest in smart phones, bars warrantless forensic searches
of cell phones at the border. The district court did not reach
this issue, but instead, held that regardless of whether there
was a Fourth Amendment violation, the evidence obtained
from Aguilar's cellphone should not be suppressed because
the agents who conducted the forensic search acted in good
faith.
[4] [5] [6] [7] [8] Starting with the basics, the Fourth
Amendment prohibits unreasonable searches and seizures.
See U.S. CONST. amend. IV. When government officials
conduct a search in violation of the Fourth Amendment,
prosecutors are barred from introducing evidence obtained in
the unlawful search at trial. See United States v. Ganzer, 922
F.3d 579, 584 (5th Cir. 2019). But, as the district court noted,
there is the good faith exception to the exclusionary rule.
Under this exception, “evidence is not to be suppressed ...
where it is discovered by officers in the course of actions that
are taken in good faith and in the reasonable, though mistaken,
belief that they are authorized.”
United States v. RamirezLujan, 976 F.2d 930, 932 (5th Cir. 1992) (internal quotations
and citation omitted). This exception thus applies when
government officials “acted reasonably in light of the law
existing at the time of the search.” United States v. MolinaIsidoro, 884 F.3d 287, 290 (5th Cir. 2018). Accordingly, to
determine whether the district court properly applied the good
faith exception to deny Aguilar's motion to suppress, we ask:
What was the law at the time of the search, and secondly,
was CBP's forensic search of Aguilar's cell phone objectively
reasonable in the light of the then-existing law?

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Aguilar, 973 F.3d 445 (2020)

[9]
[10]
[11]
[12] Although the Fourth Amendmenthimself as the purchaser of the cans' contents. Thus, there was
clearly “a particularized and objective basis for suspecting
applies at the border, its protections are severely diminished.
[Aguilar] of criminal activity,” which is all that is required to
See id. at 290–91. At the border, “[t]he government's interest
establish reasonable suspicion, the highest level of suspicion
is at its ‘zenith’ because of its need to prevent the entry
that had been required at the border at the time of the
of contraband ... and an individual's privacy expectations
are lessened by the tradition of inspection procedures at
search. 1 See
Ornelas v. United States, 517 U.S. 690, 696,
the border.” Id. at 291 (citations omitted). Accordingly, the
116 S.Ct. 1657, 134 L.Ed.2d 911 (1996) (internal quotations
border-search exception allows officers to conduct “routine
and citations omitted). And, although
Riley made clear
inspections and searches of individuals or conveyances
that individuals have a heightened privacy interest in smart
seeking to cross [United States] borders” without any
phones, this court has held post- Riley that border agents
particularized suspicion of wrongdoing.
United States v.
acted reasonably when they “continue[d] to rely on the robust
Ramsey, 431 U.S. 606, 619, 97 S.Ct. 1972, 52 L.Ed.2d
body of pre- Riley caselaw that allowed warrantless border
617 (1977) (internal quotations and citation omitted).
searches of computers and cell phones.” Molina-Isidoro, 884
Individualized suspicion may, however, be required if a
F.3d at 292. We therefore agree with the district court that the
border search is “highly intrusive” or impinges on “dignity
good faith exception to the exclusionary rule applies to the
and privacy interests.”
United States v. Flores-Montano,
forensic search of Aguilar's phone, and we affirm the district
541 U.S. 149, 152, 124 S.Ct. 1582, 158 L.Ed.2d 311 (2004).
court's denial of Aguilar's motion to suppress.
Neither this court nor the Supreme Court has
announced whether forensic digital border searches require
individualized suspicion. But, at the time of the search of
Aguilar's phone, the Ninth Circuit, the Fourth Circuit, and
a Maryland district court had concluded that forensic digital
border searches require reasonable suspicion. See
United
States v. Cotterman, 709 F.3d 952, 968 (9th Cir. 2013) (en
banc);
United States v. Kolsuz, 890 F.3d 133, 144–46 (4th
Cir. 2018), as amended (May 18, 2018); United States v.
Saboonchi, 48 F. Supp. 3d 815, 819 (D. Md. 2014). It appears
to us, however, that no court had required a warrant to conduct
a forensic search of a cellphone at the border.
[13] Given the state of the law at the time Aguilar's phone
was forensically *450 searched, we conclude that the border
agents had a good faith, reasonable belief that they could
search Aguilar's phone without obtaining a warrant. At the
time of the search, CBP knew Aguilar had attempted to cross
the border with Cano and Hernandez who were carrying
four cans that physical inspection and x-rays revealed to be
suspicious. Further, a K-9 unit had alerted the agents to the
presence of narcotics in the cans, and Aguilar had implicated

III.
To sum up: the only issue presented in this appeal is whether
the district court erred in denying Aguilar's motion to suppress
the information obtained from the forensic border search
of his cell phone. We have jurisdiction to consider this
issue because, although he agreed to a stipulated bench trial,
Aguilar expressly reserved the right to appeal the district
court's denial of the motion to suppress. And because the good
faith exception to the exclusionary rule applies to the forensic
search of Aguilar's phone, the district court did not err in
denying Aguilar's motion to suppress.
Accordingly, the judgment of the district court is, in all
respects,
AFFIRMED.
All Citations
973 F.3d 445

Footnotes
1

As discussed at oral argument, subsequent to the search of Aguilar's phone, the Ninth Circuit has held that
“border officials may conduct a forensic cell phone search only when they reasonably suspect that the cell
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Aguilar, 973 F.3d 445 (2020)

phone contains contraband.”
United States v. Cano, 934 F.3d 1002, 1020 (9th Cir. 2019). Thus, according
to the Ninth Circuit, warrantless forensic searches of cell phones are impermissible when the agents merely
suspect that the phone will contain evidence “of past or future border-related crimes.” See

id. Because

Cano was decided after the search of Aguilar's phone, we do not consider its holding in assessing whether
the agents acted in good faith. See Molina-Isidoro, 884 F.3d at 290. And, although Judge Costa's concurrence
in Molina-Isidoro expressed similar concerns about allowing border cell phone searches for items other than
contraband, see id. at 295–97,
Cano is the only case that we have found that requires a warrant to
conduct a forensic data search at the border. We therefore think that, at the time of the forensic search, it
was objectively reasonable for the CBP agents to conclude that reasonable suspicion was all they needed
to conduct a forensic search of Aguilar's phone.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

